Important Cost Information about our Credit Card
Interest Rates and Charges
Annual Percentage Rate (APR)
for Purchases

14.24% to 18.24% based on your creditworthiness. This APR will

APR for Cash Advances

25.00%. This APR will vary with the market based on the Prime Rate.
0% introductory APR for the first 12 billing cycles for balances transferred
within 60 days from account opening. After the first 12 billing cycles, and
for Balance Transfers made more than 60 days from account opening,
14.24% to 18.24% (based on your credit worthiness) if your Balance
Transfer is treated as a Purchase, or 25.00% if your Balance Transfer is
treated as a Cash Advance. These APRs will vary with the market based on
the Prime Rate.
Your due date is at least 21 days after the close of each billing cycle. We will
not charge you interest on Purchases if you pay your entire balance by the
due date each month. Generally, we will begin charging interest on Cash
Advances and Balance Transfers on the transaction date.

APR for Balance Transfers

Paying Interest

vary with the market based on the Prime Rate.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees
•
Balance Transfer
•

Cash Advance

•

Foreign Transaction

Three percent (3%) of the amount of the Balance Transfer, with a $15
minimum and no maximum.
Three percent (3%) of the amount of the Cash Advance, with a $15
minimum and a $50 maximum.
Two percent (2%) of the U. S. dollar amount of each Cash Advance or
Purchase.

Penalty Fees
•

Late Payment

Up to $35

•

Returned Payment

Up to $35

•

Over the Credit Limit

None

How We Will Calculate Your Balance: We use a method called the “average daily balance (including new purchases)”.
How we determine APRs: The Purchase and Cash Advance APRs are determined by adding a Margin to the Prime Rate. The Prime Rate is the highest Prime Rate published in The Wall Street Journal
Money Rates table on the fifteenth (15th) day of each month, or the next business day, if the 15th falls on a weekend or holiday. The APR for Purchases and Cash Advances will not exceed 25.00%.
Agreement and Disclosures: Applicant applies to UMB Bank, n.a. (“Issuer”) for a credit card account (“Account”), and certifies that the information given in the application is true and correct.
If approved, Applicant agrees to pay all charges when due in accordance with the Cardholder Agreement which will be sent with the Card(s). Applicant acknowledges receipt of the Important
Cost Information disclosure on the reverse side of this application. Applicant authorizes the Issuer to obtain a credit report in connection with this application and from time to time after
the Account is established, to verify that the Applicant continues to qualify for the Account. Issuer may verify Applicant’s credit, employment history and other information relating to the
Applicant, and provide information to credit bureaus about the Issuer’s experience with Applicant.
Cardholder Agreement: For additional information about the costs and terms of the Account, see your Cardholder Agreement, which will be sent with the Card. The Cardholder Agreement
and the Account will be governed by Missouri and applicable federal law, but we will rely on the provisions of Nebraska law with respect to the fees and charges (other than interest) that
apply to your Account, as authorized by Missouri Revised Statutes Section 408.145. The Cardholder Agreement permits us to change the terms of this Account, including the rates, fees and
other credit terms, upon notice to cardholder and subject to the provisions of applicable law.
Notice to Young Applicants: If you are under 21 years of age, Federal law prohibits us from approving your application for a credit card unless you demonstrate that you have the independent
ability to make the required payments on your account, or unless you provide a guarantor or cosigner. The guarantor or cosigner must be acceptable to us and must sign our form of guaranty
agreement.
Important Information About Procedures For Opening A New Account: Our bank complies with Section 326 of the USA PATRIOT Act. This law mandates that we collect and verify certain
information about you while processing your Account application. Please talk with a Bank representative if you have questions.
State Disclosures: (1) MARRIED WISCONSIN RESIDENTS: You agree that (a) no provision of any marital property agreement, unilateral statement under the Wisconsin Marital Property
Law or court decree will adversely affect our interests unless, prior to the time credit is granted, we are given a copy of the agreement, statement, or decree or we have actual knowledge
of the adverse provision. (2) CALIFORNIA RESIDENTS: An applicant, if married, may apply for a separate account. Applicants: (1) may, after credit approval, use the credit card account
up to its credit limit; (2) may be liable for amounts extended under the plan to any joint applicant. As required by law, you are hereby notified that a negative credit report reflecting on
your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations. (3) OHIO RESIDENTS: The Ohio laws against discrimination require
that all creditors make credit equally available to all credit worthy customers, and that credit reporting agencies maintain separate credit histories on each individual upon request. The
Ohio Civil Rights Commission administers compliance with this law. (4) NEW YORK RESIDENTS: New York residents may contact the New York State Department of Financial Services
by telephone or visit its website for free information on comparative credit card rates, fees and grace periods. NY State Dept of Financial Services: 1-800-342-3736 or visiting http://
www.dfs.ny.gov/consumer/creditdebt.htm (5) NEW YORK AND VERMONT RESIDENTS: We may obtain your credit reports, for any legitimate purpose associated with the account or the
application or request for an account, including but not limited to reviewing, modifying, renewing and collecting on your account. On your request, you will be informed is such a report
was ordered. If so, you will be given the name and address of the consumer reporting agency furnishing the report. (6) DELAWARE AND OREGON RESIDENTS: Service charges not in
excess of those permitted by law will be charged on the outstanding balances from month to month. You may pay more than the minimum payment due, up to your entire outstanding
balance, at any time.
Important: Information about the costs of credit cards as shown in the Important Cost Information chart is accurate as of February 1, 2016, the date this document was printed. This
information may have changed after that date. To find out what may have changed, call us at 855.368.0410 or write to us at UMB Bank, n.a., P.O. Box 419734, Kansas City, Missouri
64141-6734.

